 OFFICE OF AUDIT
 REGION IX
 LOS ANGELES, CA




    Most Allegations Against the Oakland Housing
   Authority, Related to Housing Quality Standards
    Inspection Services, Were Generally Not Valid

                    Oakland, CA




2012-LA-1009                               AUGUST 3, 2012
                                                        Issue Date: August 3, 2012

                                                        Audit Report Number: 2012-LA-1009




TO:            Velma Navarro, Director, Office of Public Housing, San Francisco, Region IX,
               9APH


FROM:          Tanya E. Schulze, Regional Inspector General for Audit, Los Angeles Region IX,
               9DGA

SUBJECT:       Most Allegations Against the Oakland Housing Authority, Oakland, CA, Related
               to Housing Quality Standards Inspection Services, Were Generally Not Valid

    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of the Oakland Housing Authority in
response to a hotline complaint. The complaint alleged that the Authority engaged in various
questionable functions involving its inspection services.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
(213) 534-2471.
                                             August 3, 2012

                                             Most Allegations Against the Oakland Housing
                                             Authority, Oakland, CA, Related to Housing Quality
                                             Standards Inspection Services, Were Generally Not Valid


Highlights
Audit Report 2012-LA-1009


 What We Audited and Why                      What We Found

We completed a review of the Oakland         Most of the allegations against the Authority were
Housing Authority in response to a           generally not valid. However, we found indications
hotline complaint alleging that the          that 13 of 19 housing units inspected did not meet
Authority engaged in various                 housing quality standards, and 8 of those were in
questionable functions involving its         material noncompliance. As a result, the Authority
inspection services. The objective of        paid $28,508 in Section 8 program funds to owners of
the review was to determine whether          housing units that were not decent, safe, and of
the complaint allegations against the        standard quality.
Authority were valid.

 What We Recommend

We recommend that the Director of the
U.S. Department of Housing and Urban
Development’s (HUD) San Francisco
Office of Public Housing require the
Authority to certify that the identified
failed housing quality standards items
have been corrected for the eight
housing units cited in this report or take
appropriate administrative action and
reimburse its Section 8 program from
non-Federal funds $28,508 for the eight
housing units that materially failed to
meet housing quality standards and
ensure that its personnel are sufficiently
trained to identify all housing quality
standards items that would cause
Section 8-funded housing units to not
meet housing quality standards .
                            TABLE OF CONTENTS

Background and Objective                                                            3

Results of Audit
      Most Allegations Related to the Authority’s Inspection Services Were Generally
      Not Valid                                                                      4

Scope and Methodology                                                               11

Internal Controls                                                                   13

Appendixes
A.    Schedule of Questioned Costs                                                  15
B.    Auditee Comments and OIG’s Evaluation                                         16
C.    Criteria                                                                      23
D.    Schedule of Ineligible Housing Units                                          24
E.    Schedule of Categories of Failed Housing Quality Standards Items              25
F.    Schedule of OIG Inspection Results                                            26




                                             2
                     BACKGROUND AND OBJECTIVES

The City of Oakland Housing Authority was established in 1938 to ensure the availability of
quality housing for low-income persons. The Authority operates federally funded and other low-
income housing programs and assists more than 15,000 of Oakland, CA’s lowest income
families, elderly, and persons with disabilities. The mission of the Authority is to ensure the
availability of quality housing for low-income persons, promote the civic involvement and
economic self-sufficiency of residents, and further the expansion of affordable housing within
Oakland. The Authority’s governing body is its seven-member board of commissioners,
comprised of city residents appointed by the mayor and approved by the Oakland City Council.
Two of the commissioners are residents of public housing.

The Authority has previously been recognized by the U.S. Department of Housing and Urban
Development (HUD) as a “high performing” housing authority and earned the opportunity to
participate in the congressionally authorized Moving to Work Demonstration program. The
Authority was selected to participate in Moving to Work in 2001 and executed its first Moving to
Work agreement with HUD in March of 2004. The original 7-year contract was scheduled to
expire on June 30, 2011. In February of 2009, the Authority signed an amended and restated
Moving to Work agreement with HUD. The new agreement extends its participation in the
program through the end of June, 2018, an additional 7 years past the scheduled expiration date
of the original agreement. Moving to Work provides a unique opportunity for housing
authorities to explore and test new and innovative methods of delivering housing and supportive
services to low-income residents. Originally authorized under the Omnibus Consolidated
Recessions and Appropriations Act of 1996, the program waives certain provisions of the
Housing Act of 1937 and HUD’s implementing requirements and regulations. In addition, using
Moving to Work authority, the Authority may combine funding from several HUD programs into
a single-fund budget with full flexibility. The Authority may use Moving to Work funds in the
single-fund budget for any eligible program activity, including operating subsidy, capital
improvements, acquisition and new construction, counseling, and case management. In addition,
the Authority’s agreement allows the program funds to be used outside the traditional public
housing and Section 8 programs to support local housing activities. The Authority has renamed
the program “Making Transitions Work” to better reflect the potential of the demonstration
program in Oakland.

As of December 2011, the Authority administered approximately 2,048 public housing units and
13,100 housing choice vouchers under its Section 8 program. It had spent more than $282
million in HUD Section 8 funding to provide housing assistance to eligible participants.

The objective of this review was to determine whether the allegations against the Authority were
valid. The allegations in the complaint were related to various functions involving housing
quality standards inspection services.




                                               3
                                 RESULTS OF AUDIT


Most Allegations Related to the Authority’s Inspection Services Were
Generally Not Valid
The hotline complaint’s allegations related to various functions involving inspection services
were generally not valid. However, we identified indications that the Authority did not always
conduct its housing quality standards inspections in accordance with applicable rules and
requirements. This noncompliance occurred due to the Authority’s insufficient training of
inspection personnel to identify all items that would cause the housing unit to not meet housing
quality standards. As a result, we identified at least $28,508 in Section 8 program funds that the
Authority paid to owners of housing units that were not decent, safe, and of standard quality.
Our review did not substantiate the hotline complaint allegations regarding (1) questionable
procurement for housing quality standards inspection services, (2) not enforcing policies and
procedures regarding tenants who refused the Authority entry into their housing units to allow
housing quality standards inspections, (3) questionable data reliability of inspection results
maintained on hand-held devices used during housing quality standards inspections, or (4) not
enforcing policies and procedures regarding property owners of abated housing units.


 The Authority Passed Housing
 Units That Did Not Comply
 With Housing Quality
 Standards

               From the 2,098 housing units inspected and passed by the Authority from October
               1 to December 31, 2011, we randomly selected 19 for inspection using computer-
               processed data and computer-assisted audit techniques. We inspected these 19
               housing units between March 12 and 16, 2012, to determine whether the Section
               8-funded housing units met applicable housing quality standards rules and
               requirements.

               HUD regulations at 24 CFR (Code of Federal Regulations) 982.401(a)(3) state
               that all program housing units must meet the housing quality standards
               performance requirements both at initial occupancy and throughout the Section 8
               participants’ tenancy. In addition to meeting housing quality standards
               performance requirements, the housing unit must meet the acceptability criteria
               stated in HUD regulations at 24 CFR 982.401(a)(4)(i) unless variations are
               approved by HUD.




                                                 4
            Of the 19 housing units inspected, we identified 13 (68 percent) that failed to
            meet housing quality standards. The 13 housing units had 72 failed housing
            quality standards items, including 70 that existed before the Authority’s previous
            inspections. Of the 13 failed housing units, 8 were considered materially deficient
            and noncompliant with HUD’s rules and regulations. These housing units had 65
            failed housing quality standards items, including 63 that existed before the
            Authority’s previous inspections. Each of the identified materially deficient
            housing units had health and safety issues. All had more than two failed housing
            quality standards items that existed before the Authority’s previous inspections.

            As a result, the Authority spent $28,508 in housing assistance payments for 8
            housing units that were materially deficient and failed to comply with applicable
            rules and requirements. The questioned costs consisted of the monthly payments
            issued to the owners of the failed housing units between the Authority’s
            inspection and our inspection. Appendix D details the associated incurred
            ineligible costs.

            The following table lists the three most common types of failed housing quality
            standards items found among the 13 housing units that failed our inspections.
            Appendix E details the failed housing quality standards items identified during
            our inspections.

                Categories of failed         Number of          Number of
                 housing quality            instances of       housing units
                 standards items           the failed item       affected
             Security                              9                  6
             Stove or range with oven              8                  8
             Water heater                          6                  6

            Appendix F details the results of our inspections and the failed housing quality
            standards items found in each of those affected housing units.

Several Types of Deficiencies
Were Found

            The following are examples of some of the failed housing quality standards items
            found during our inspections.

                                                  Security

            We identified nine failed housing quality standards items related to security in six
            housing units inspected. An example of a failed security housing quality
            standards item included missing door strikers. The following pictures are
            examples of failed housing quality standards items related to security found in the
            affected housing units inspected.


                                             5
      Missing door striker to rear entrance                     Missing door striker to rear entrance of bedroom


                                         Stove or Range With Oven

We identified eight failed housing quality standards items related to the stove or
range with oven in eight housing units inspected. Examples of these failed items
included the installation of stove air vent tubing with improper sealing material
and excessive accumulation of grease on the stove hood and wall. The following
pictures are examples of failed housing quality standards items related to the stove
or range with oven found in the affected housing units inspected.




Improper sealing material used to connect tubing to ceiling   Excessive grease build-up on the stove hood and wall




                                                Electrical Hazards

We identified eight failed housing quality standards items related to the electrical
hazards in four housing units inspected. Examples of these failed items included
exterior electrical outlets without safety covers and missing ground fault circuit
interrupters (GFCI) in updated or remodeled kitchens. The following pictures are
examples of failed housing quality standards items related to the electrical hazards
found in the affected housing units inspected.



                                                 6
              Exposed electrical outlet without safety cover        Missing GFCI outlet in updated kitchen


            HUD regulations at 24 CFR 982.404(a) state that the owner must maintain the
            housing unit in accordance with HUD’s housing quality standards. The regulation
            goes on to state that if the owner fails to maintain the housing unit in accordance
            with housing quality standards, the housing authority must take prompt and
            vigorous action to enforce the owner obligations (for example, remedies for such
            breach of the housing quality standards include termination, suspension or
            reduction of housing assistance payments, and termination of the housing
            assistance payments contract). The regulations also state that the authority must
            not make any housing assistance payments for a housing unit that fails to meet
            housing quality standards unless the owner corrects the failed item within the
            period specified by the authority and it verifies the correction. If the failed item is
            life threatening, the owner must correct it within no more than 24 hours. For
            other failed items, the owner must take corrective action within no more than 30
            calendar days or any authority-approved extension.

                                        Corrective Actions Taken by the Authority

            During the inspections, the Authority generally acknowledged the failed housing
            quality standards items and took corrective action to address those identified
            items considered 24-hour failed housing quality standards items. The Authority
            was required to notify the tenants and owners of the failed housing quality
            standards items, and the responsible party was required to correct the identified
            items within 24 hours.

The Authority Generally
Administered and Procured Its
Housing Quality Standards
Inspection Services Contract in
Accordance With Requirements

            The complaint alleged improper administration and procurement of Authority
            contracts, including the Authority’s housing quality standards inspections



                                                               7
            contract. Based on our procurement and contracting review of the housing quality
            standards inspections contract, the allegations were not substantiated. Our review
            of the contract showed that the Authority generally administered and procured its
            housing quality standards inspection services contract in accordance with
            applicable HUD rules and requirements, as well as its own procurement policies
            and procedures.

The Authority Enforced Its
Policies and Procedures
Regarding Tenants Who
Refused Entry for Housing
Quality Standards Inspections

            The allegation mentioned that the Authority did not perform annual housing
            quality standards inspections due to the Section 8 participants’ refusal to allow
            inspections. The allegation went on to state that the Authority continued to make
            housing assistance payments for these uninspected units and did not take action to
            terminate participants who refused inspections from the program. Based on our
            review, 17 of 20 randomly sampled inspections showed no apparent indications of
            tenants refusing the Authority entry to conduct housing quality standards
            inspections. The remaining three showed indications that tenants refused the
            Authority entry into their housing units to conduct required housing quality
            standards inspections. However, the Authority took action against those tenants
            by terminating the housing assistance payments and Section 8 contracts related to
            their housing units. As a result, we found no apparent validity to the complaint
            that the Authority did not enforce its policies and procedures regarding removing
            tenants from its Section 8 program who refused entry to conduct housing quality
            standards inspections of Section 8-funded housing units.

Questionable Data Reliability of
Inspection Results on Housing
Quality Standards Inspection
Hand-Held Devices Was Not
Substantiated

            The allegation stated that the Authority’s hand-held inspection device and Me-
            Ware software did not comply with HUD’s inspection form HUD-52580 and that
            the inspectors did not inspect all housing quality standards items since the
            software did not allow for a complete record of the inspection. The allegation
            also mentioned that the Authority’s database used to internally track inspections
            defaulted all inspection items to “pass” even if the inspectors did not inspect the
            item. Our testing of a randomly selected Me-Ware software-installed hand-held
            device used by the Authority determined that it had all of the housing quality
            standards items listed on form HUD-52580 and allowed the Authority to conduct
            housing quality standards inspections without any apparent problems. Our review


                                             8
           of the Authority’s inspection practices showed that its initial and annual
           inspections required the inspection of all housing quality standards items as
           shown on the hand-held devices and the form HUD-52580. During reinspections,
           the Authority inspected only specific housing quality standards items within the
           housing units that failed prior annual or initial inspections. For emergency and
           complaint inspections, the Authority could inspect all or specific housing quality
           standards items brought to its attention by tenants, owners, or the City of Oakland.
           If necessary, the Authority would add new failed housing quality standards items
           identified during reinspections or emergency or complaint inspections. Our
           review of the Authority’s Me-Ware software found that all housing quality
           standards items defaulted to the “pass” option but could be changed to the “fail”
           option for any specific item that did not meet housing quality standards. Our
           testing of a randomly selected hand-held device used during housing quality
           standards inspections found that the inspection results were tracked and
           maintained in the Authority’s system without any problems. Overall, our review
           of Authority documents and tests of its hand-held device found no apparent
           issues, and we determined that the allegations were not substantiated

The Authority Generally
Abated Section 8-Funded
Housing Units in Accordance
With Its Policies and
Procedures

           According to the allegation, the Authority did not recover housing assistance
           payments from properties it owned, also known as asset-managed properties, that
           were placed on abatement for failing housing quality standards inspections. We
           reviewed 40 sampled files of Section 8-funded housing units that had the
           probability of being abated. This sample included 20 asset-managed and 20 non-
           asset-managed properties. The non-asset-managed sample consisted of Authority
           Section 8 properties not owned by the Authority. There were four instances (10
           percent, or 4 of 40) for which the Authority failed to recover housing assistance
           payments on abated Section 8-funded housing units. When these four instances
           were brought to the Authority’s attention, it took corrective actions to begin
           recovering those affected payments from owners of housing units that should
           have been abated. The Authority was in the process of recovering housing
           assistance payments from three of its asset-managed properties (8 percent, or 3 of
           40) for failed housing quality standards inspections. According to the Authority,
           computer-related issues were the reason for not recovering the payments. The
           Authority maintained documentation on these three abated housing units while it
           attempted to correct the computer problem. As a result, it appeared that the
           Authority generally recovered housing assistance payments from both asset-
           managed and non-asset-managed properties that were placed on abatement for
           failing housing quality standards inspections. Therefore, we determined that the
           allegation that the Authority did not recover payments from asset-managed and



                                            9
             non-asset-managed properties that were placed on abatement for failing housing
             quality standards inspections was generally not valid.

Conclusion

             Most of the hotline complaint’s allegations, related to various functions involving
             inspection services, were generally not valid. However, we determined that 13 of
             19 housing units inspected did not meet housing quality standards and 8 were in
             material noncompliance. This noncompliance occurred due to the Authority’s
             insufficient training of inspection personnel to identify all items that would cause
             the housing unit to not meet housing quality standards. These actions placed the
             Authority, program funds, and the tenant at significant financial and legal risk. In
             addition, tenants residing in the affected housing units were subjected to potential
             health and safety issues. As a result, the Authority paid $28,508 in Section 8
             housing assistance to property owners of housing units that were not decent, safe,
             and of standard quality. We identified no indications of (1) questionable
             procurement for housing quality standards inspection services, (2) not enforcing
             policies and procedures regarding tenants who refused the Authority entry into
             their housing units to allow housing quality standards inspections, (3)
             questionable data reliability of inspection results maintained on hand-held devices
             used during housing quality standards inspections, or (4) not enforcing policies
             and procedures regarding property owners of abated housing units.

Recommendations

             We recommend that the Acting Director of HUD’s San Francisco Office of Public
             Housing require the Authority to

             1A.    Certify that the identified failed housing quality standards items have been
                    corrected for the eight housing units cited in this report or take appropriate
                    administrative action.

             1B.    Reimburse its Section 8 program from non-Federal funds $28,508 for the
                    eight housing units that materially failed to meet housing quality
                    standards.

             1C.    Ensure that all Authority personnel who conduct housing quality standards
                    inspections are sufficiently trained to identify all items that would cause
                    Section 8-funded housing units to not meet housing quality standards




                                              10
                        SCOPE AND METHODOLOGY

We performed our onsite work at the Authority’s main office in Oakland, CA, between January
and June 2012. Our review generally covered the period July 1, 2010, through February 29,
2012, and was expanded to other periods as necessary.
To accomplish the review objective, we

   •   Reviewed applicable contracts, rules, regulations, and guidance;

   •   Obtained relevant background information pertaining to the Authority;

   •   Reviewed Authority policies and procedures related to housing quality standards
       inspections and procurement for goods and services;

   •   Interviewed relevant Authority and HUD personnel;

   •   Reviewed relevant HUD monitoring and reporting records;

   •   Reviewed documents related to procurement for housing quality standards inspection
       services;

   •   Tested a random sample of a Me-Ware software-installed hand-held device used during
       housing quality standards inspections;

   •   Reviewed random samples of documents related to potentially abated housing units;

   •   Reviewed random samples of documents related to tenants who allegedly refused the
       Authority entry into their housing units to conduct housing quality standards inspections;
       and

   •   Conducted onsite reviews of randomly selected samples of housing units where the
       Authority conducted housing quality standards inspections.
We randomly selected 19 of the Authority’s Section 8-funded housing units to inspect from the
2,098 housing units inspected and passed from October 1 to December 31, 2011. We used
computer-processed data and computer-assisted audit techniques to obtain our sample and
through our testing, determined that the computer-processed data were adequate for use during
our review. The 19 housing units were selected to determine whether Section 8-funded housing
units met HUD’s housing quality standards.

We conducted inspections and determined that 8 of the 19 housing units (42 percent) materially
failed to meet HUD’s housing quality standards. Materially failed housing units were those
considered to have health and safety issues with more than two failed housing quality standards
items that predated the Authority’s previous inspections.


                                               11
We conducted the review in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the review to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our objective.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our objective.




                                              12
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, methods, and procedures used to meet the organization’s
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations as well as the systems for
measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

               •   Effectiveness and efficiency of operations - Policies and procedures that were
                   implemented to reasonably ensure effective and efficient operations of the
                   Authority’s Section 8 housing quality standards inspections;

               •   Reliability of program reporting - Policies and procedures that were
                   implemented to reasonably ensure that valid and reliable information was
                   obtained, maintained, and fairly disclosed in its Section 8 housing quality
                   standards inspection reports; and

               •   Compliance with applicable laws and regulations - Policies and procedures
                   that were implemented to reasonably ensure that Section 8 housing quality
                   standards inspections were consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control
               does not allow management or employees, in the normal course of performing
               their assigned functions, the reasonable opportunity to prevent, detect, or correct
               (1) impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on
               a timely basis.




                                                13
Significant Deficiencies

             We evaluated internal controls related to the review objective in accordance with
             generally accepted government auditing standards. Our evaluation of internal
             controls was not designed to provide assurance regarding the effectiveness of the
             internal control structure as a whole. Accordingly, we do not express an opinion
             on the effectiveness of the Authority’s internal control.




                                             14
                                   APPENDIXES

Appendix A

                SCHEDULE OF QUESTIONED COSTS

                          Recommendation
                                                  Ineligible 1/
                              number
                                1B                  $28,508


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.




                                            15
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1


Comment 2




                         16
Comment 3



Comment 4




Comment 5




Comment 6




Comment 7

Comment 8




            *Addresses redacted for privacy reasons.




                                    17
Comment 9




Comment 10


Comment 11




             18
Comment 12




             19
                         OIG Evaluation of Auditee Comments

Comment 1   We noted that unit numbers and addresses in the Authority’s response did not
            match the unit numbers in the audit report. We used the property addresses
            provided by the Authority in its response to address the Authority’s comments.
            The correct audit report unit number is noted in each comment below.

Comment 2   We found only 2 of 19 housing units that had hollow core doors that raised
            concerns of potential security issues for the tenants residing in the housing unit.
            This housing unit was one of two housing units that we found that did not have
            solid main entry doors. These two housing units were exceptions to the consistent
            practices in the other 17 housing units we had inspected that did have solid doors
            in place. As a result, we will not reduce the questioned cost stated in appendix D
            of the report. It should also be noted that the $3,154 in questioned Section 8
            program funds stated in the report was related to housing unit number 2 and not
            the housing unit stated in your response.

Comment 3   For clarification, the correct housing unit number stated in the report was unit
            number 4, not unit 3 as stated in your response. In housing unit number 4, we
            found that the master bedroom door was cracked and presented a potential
            security issue for the tenants who resided in the housing unit. According to HQS
            training material obtained from a HUD vendor commonly used by public housing
            authorities, the doors, and component parts must be free from damage such as
            splits, cracks and holes that would seriously affect the use and ability of the door
            to be locked. As a result, we will not remove this failed housing quality standards
            item from the report.

            We believe that the hollow core door at housing unit number 4 raised the same
            security and safety issues stated in comment 2. We found 2 of 19 housing units
            with hollow core doors that raised concerns of security issues. As stated in
            comment 2, these two housing units were exceptions to the consistent practices in
            the other 17 housing units that had solid doors in place. As a result, we will not
            remove this failed housing quality standards item from the report.

Comment 4   We agree that some of the issues cited during our inspections were tenant-caused
            housing quality standards items and appeared to have occurred after the
            Authority’s initial inspection. We reviewed the items and revised our results
            accordingly to reflect only those items we felt that the inspector failed to note
            during the inspection of the housing unit.

Comment 5   For clarification, the correct housing unit number stated in the report was unit
            number 4, not unit 3 as stated in your response. We removed the four failed
            housing quality standards items stated in your response since these items were
            tenant caused and may have occurred after the Authority’s initial inspection of the
            housing unit. However, there were other outstanding failed housing quality
            standards items identified during our inspection that will remain in the report.



                                             20
Comment 6     For clarification, the correct housing unit number stated in the report was unit
              number 2, not unit 9 as stated in your response. With the exception of the missing
              stove temperature knob, all other housing quality standards items will remain in
              the report since these were items that the inspector should have identified during
              the annual inspection. These items had accumulated over an extended period and
              should have been identified during the Authority’s inspection.

Comment 7     For clarification, the correct housing unit number stated in the report was unit
              number 8, not unit 10 as stated in your response. Due to the accumulation of
              excessive grease that occurred over an extended period, we believe the inspector
              should have identified this item during the annual inspection of the housing unit.
              As a result, we will keep this failed item in the report.

Comment 8     For clarification, the correct housing unit number stated in the report was unit
              number 6, not unit 11 as stated in your response. We agree to remove the item
              related to the inoperable left front stove burner due to the lack of clear indication
              that the item was either deficient or missed by the inspector during the initial
              inspection. Also, we agree to remove the item related to the safety of heating
              equipment since the items were tenant caused and may have occurred after the
              initial inspection. However, we believe that the improper sealing of the air vent
              located above the stove was an item that had existed for an extended period, and
              the inspector should have identified it during the initial inspection of the housing
              unit.

Comment 9     For clarification, the correct housing unit number stated in the report is unit
              number 5, not unit 4 as stated in your response. We agree with your comments
              regarding the discrepancy between OIG’s and the Authority’s electrical outlet
              tester and removed the references about the GFCI outlet from the report.

Comment 10 For clarification, the correct housing unit number stated in the report was unit
           number 3, not unit 12 as stated in your response. Based on our assessment, we
           concluded that the failed item was indoor air quality due to mildew found during
           OIG’s inspection of the housing unit. Good interior air quality includes
           controlling excessive moisture that may result in mildew. Mildew in the housing
           unit raises concerns of potential health problems that include, but are not limited
           to allergies, asthma, and other respiratory conditions. By avoiding moisture
           problems within the housing unit, there could be an added benefit of helping to
           prevent infestation by insects that are sources of asthma triggers such as dust
           mites and cockroaches. As a result, we will keep this item in the report.

Comment 11 We agree with your comment that the inspectors have received housing quality
           standards training. However, we believe that the inspectors should receive
           additional training to address items overlooked or not covered in this training. As
           a result, we revised the internal controls section of the report.




                                                21
Comment 12 We would also like to thank the Authority for its professionalism and assistance
           throughout the audit process.




                                             22
Appendix C

                                         CRITERIA

The following sections of HUD rules and regulations were relevant to our review of the
Authority’s housing quality standards inspections of Section 8-funded housing units.

Regulations at 24 CFR 982.401(a)(3) state that all program housing must meet the housing
quality standards performance requirements both at commencement of assisted occupancy and
throughout the assisted tenancy.

Regulations at 24 CFR 982.401(a)(4)(i) state that in addition to meeting housing quality
standards performance requirements, the housing must meet the acceptability criteria stated in
this section [a(4)] unless variations are approved by HUD.

Regulations at 24 CFR 982.404(a) state that (1) the owner must maintain the unit in accordance
with housing quality standards; (2) if the owner fails to maintain the dwelling unit in accordance
with housing quality standards, the housing authority must take prompt and vigorous action to
enforce the owner obligations (remedies for such breach of the housing quality standards include
termination, suspension or reduction of housing assistance payments, and termination of the
housing assistance payments contract); and (3) the housing authority must not make any housing
assistance payments for a dwelling unit that fails to meet the housing quality standards unless the
owner corrects the defect within the period specified by the authority and the authority verifies
the correction. If a defect is life threatening, the owner must correct the defect within no more
than 24 hours. For other defects, the owner must correct the defect within no more than 30
calendar days (or any authority-approved extension).




                                                23
Appendix D

       SCHEDULE OF INELIGIBLE HOUSING UNITS

         Housing   Authority inspection    OIG inspection   Questioned
          unit            date                  date         housing
         number                                             assistance
                                                            payments
             1     November 7, 2011        March 15, 2012   $   5,022.26
             2     December 15, 2011       March 15, 2012   $   3,154.35
             3      October 3, 2011        March 16, 2012   $   2,894.32
             4     December 2, 2011        March 13, 2012   $   5,043.51
             5     December 21, 2011       March 13, 2012   $     726.48
             6     November 30, 2011       March 16, 2012   $   2,453.19
             7      October 28, 2011       March 13, 2012   $   3,884.61
             8      October 7, 2011        March 16, 2012   $   5,329.03
                              Total                         $28,507.77




                                      24
Appendix E

      SCHEDULE OF CATEGORIES OF FAILED HOUSING
             QUALITY STANDARDS ITEMS

       Categories of failed housing quality standards         Instances of   Housing
                            items                           failed housing    units
                                                                quality      affected
                                                            standards item
  1   Security                                                      9           6
  2   Stove or range with oven                                      8           8
  3   Water heater                                                  6           6
  4   Window condition                                              6           5
  5   Wall condition                                                6           4
  6   Electrical hazards                                            6           3
  7   Safety of heating equipment                                   5           5
  8   Floor condition                                               3           2
  9   Smoke detectors                                               3           2
 10   Sink                                                          2           2
 11   Space for preparation, storage, and serving of food           2           2
 12   Tub or shower in unit                                         2           2
 13   Condition of exterior surfaces                                2           2
 14   Fire exits                                                    2           2
 15   Garbage and debris                                            2           2
 16   Other interior hazards                                        2           2
 17   Site and neighborhood conditions                              2           2
 18   Ceiling condition                                             1           1
 19   Flush toilet in enclosed room in unit                         1           1
 20   Condition of roof or gutters                                  1           1
 21   Interior air quality                                          1           1
                          Total                                    72




                                             25
Appendix F

              SCHEDULE OF OIG INSPECTION RESULTS

    Housing Total number of              Total          Did the       Was the housing unit
     unit    failed housing           number of        housing        materially deficient?
    number quality standards          preexisting      unit pass
                  items                  items          or fail?
       1            16                     16            Failed               Yes
       2            15                     15            Failed               Yes
       3            12                     12            Failed               Yes
       4             5                      5            Failed               Yes
       5             4                      4            Failed               Yes
       6             5                      5            Failed               Yes
       7             5                      3            Failed               Yes
       8             3                      3            Failed               Yes
       9             2                      2            Failed               No
      10             1                      1            Failed               No
      11             2                      2            Failed               No
      12             1                      1            Failed               No
      13             1                      1            Failed               No
      14             0                      0           Passed                No
      15             0                      0           Passed                No
      16             0                      0           Passed                No
      17             0                      0           Passed                No
      18             0                      0           Passed                No
      19             0                      0           Passed                No

Note:

•   6 of the 19 inspected housing units passed.

•   8 of the 19 inspected housing units failed with material deficiencies.

•   5 of the 19 housing units failed housing quality standards items but were not considered
    materially deficient.




                                                  26
Overall summary of results
Total number of failed housing quality standards items                              72
Total number of failed housing quality standards items for materially deficient     65
housing units
Total preexisting failed housing quality standards items                            70
Total preexisting failed housing quality standards items for materially deficient   63
housing units
Total number of failed housing units                                                13
Total number of materially deficient housing units                                  8




                                               27
